No, 20IN THE
o
.S’

SUPREME COURT OF THE UNITED STATES

•—uU
CD

u.<=>
°U.

n

|L

1-lJ r£_ CD

2l2uJ

CO

GREGORY SHAWN MERCER,
PETITIONER, pro se
VS.

*eO

E. A. VEGA, et al.
RESPONDENTS

3\
On Petition for Writ of Certiorari to the
U. S. Court of Appeals for the Fourth Circuit

APPLICATION TO THE CIRCUIT JUSTICE (Chief Justice John G. Roberts, Jr.)
FOR A RULE 33.1(d) EXPANSION OF THE RULE 33.1(g) WORD LIMIT IN
EXCESS OF 9,000 WORDS IN A PETITION FOR WRIT OF CERTIORARI DUE
ON 7/2/2020 IN COMPLIANCE WITH RULE 33.1(d) DUE TO HARDSHIP

GREGORY SHAWN MERCER, pro se
3114 Borge Street
Oakton, Virginia 22124
gregorysmercer@gmail.com
202-431-9401
Page 1 of 5

RECEIVED

.

jul

-1 a®

APPLICATION TO THE CIRCUIT JUSTICE (Chief Justice John G. Roberts, Jr.)
FOR A RULE 33.1(d) EXPANSION OF THE RULE 33.1(g) WORD LIMIT IN
EXCESS OF 9,000 WORDS IN A PETITION FOR WRIT OF CERTIORARI DUE
ON 7/2/20 IN COMPLIANCE WITH RULE 33.1(d) DUE TO HARDSHIP

COMES NOW the Petitioner, GREGORY SHAWN MERCER, pro se, moving
the Circuit Justice for the U. S. Court of Appeals for the Fourth Circuit (Chief
Justice John G. Roberts, Jr.) for an expansion of the Rule 33.1(g) Word Limit in
excess of 9,000 words for his Petition for Writ of Certiorari to the U. S. Court of
Appeals for the Fourth Circuit due on or before 7/2/2020 due to hardship. Petitioner
states as and for his Application the following:
1) On 3/6/2018, Petitioner signed a Fee Agreement with Dawson, P.L.C. for
representation in the U. S. District Court for the Eastern District of Virginia
(hereafter “VAED”) and paid Dawson, P.L.C. $22,500.
2) On 3/28/2018, Civil Action Case No. L18-cv-346 was filed costing Petitioner a
filing fee of $200.
3) On 4/24/2019, The VAED granted Defendant Vega’s Summary Judgment
Motion after Dawson, P.L.C. failed to present Petitioner’s complete Disputed
Statement of Facts in the Summary Judgment Proceeding.
4) On 5/21/2019, Petitioner had prepared a FRCP Rule 59 Motion for New Trial;
Altering or Amending a Judgment with his belated but complete Disputed

Page 2 of 5

Statement of Facts for Dawson, P.L.C. to file via its attorney SW Dawson,
Esquire.
5) SW Dawson, Esquire refused to file Petitioner’s FRCP Rule 59 Motion for
New Trial; Altering or Amending a Judgment, attacked it as “rife with
irrelevant and demonstrably incorrect information,” “objectively frivolous,”
and claimed it was not a pleading counsel would be ethically permitted to file.
6) SW Dawson, Esquire told Petitioner that counsel would have to withdraw in
order for Petitioner to file pro se his FRCP Rule 59 Motion for New Trial;
Altering or Amending a Judgment by 5/23/2019 when the FRCP Rule 59
Motion was actually due 5/22/2019.
7) Petitioner had no choice but to fire his Counsel which Withdrawal of Counsel
the VAED granted on 5/22/2019 as Petitioner filed pro se his FRCP Rule 59
Motion for New Trial; Altering or Amending a Judgment.
8) Petitioner filed pro se a timely 5/24/2019 Notice of Appeal to the U. S. Court
of Appeals for the Fourth Circuit (hereafter “Fourth Circuit”) with a filing fee
of $505.
9) Petitioner proceeding through the Fourth Circuit Gregorys. Mercer v. E. A.
Vega, Case No. 19-1584 as a pro se Appellant.
10) On 2/3/2020, the Fourth Circuit denied Petitioner’s 12/12/19 Informal
Petition for Rehearing.
ll)The SCOTUS extended the time for fifing a Petition for Writ of Certiorari
from 90 days to 150 days due to COVID-19 on or about 3/19/2020.

Page 3 of 5

12) Petitioner has until 7/2/2020 to file his Petition for Writ of Certiorari to the
Fourth Circuit in this SCOTUS.
13)The SCOTUS allowed one copy of Petitions for Writ of Certiorari to be filed
due to COVID-19 on or about 4/15/2020.
14) Petitioner has been using the extra time to perfect his pro se Petition for Writ
of Certiorari to the Fourth Circuit.
15) Petitioner prepared his large Appendix first and now types his Concise
Statement of the Case and Concise Argument Sections for his Petition for
Writ of Certiorari.
16) Petitioner passed his Rule 33.l(d & g) 9,000 Word Limit today and Sunday,
6/28/2020.

17)In accordance with Rule 33.1(d), this Application should have been filed 15
days before 7/2/2020 but Petitioner had no idea on 6/17/2020 he was going to
run over 9,000 words writing a Petition for Writ of Certiorari with two
Circuit Court Splits and a Question of Exceptional Importance.
18)In accordance with Rule 33.1(d), Petitioner needs “extraordinary
circumstances” for the expansion of words in excess of the Rule 33.1(g) 9,000
Word Limit.
19) Petitioner argues hiring Competent Counsel who abandons him in the VAED
after taking Petitioners $22,500 leaving Petitioner to continue pro se through
the Fourth Circuit without being able to afford new Competent Council is a
hardship.

Page 4 of 5

20)Petitioner estimates he needs another 1,200 words in excess of 9,000 to do his
Petition for Writ of Certiorari to the Fourth Circuit justice then prepare one
copy for the court by 7/2/2020 with the $300 filing fee.

WHEREFORE, Petitioner, pro se, moves the Circuit Justice for the U. S.
Court of Appeals for the Fourth Circuit (Chief Justice John G. Roberts, Jr.) for an
Expansion of the Rule 33.1(g) 9,000-word Word Limit to 10,200 words due to
hardship.
Respectfully Submitted,

GWGORY SHAWN MERCER, pro se
3114 Borge Street
Oakton, Virginia 22124
gregorysmercer@gmail.com
202-431-9401

Page 5 of 5

<i

